Certificate of Filing

I, Raphael M. Scheetz, Attorney for the Petitioner, certify that on September 8,
2020, I filed one original of the foregoing Petition for Writ of Certiorari and the Motion to
Proceed in Forma Pauperis in the above entitled case by depositing them in a United States
Postal Service Depository in Cedar Rapids, Iowa, addressed to the Clerk of Court, Supreme
Court of the United States, One First Street N.E., Washington, D.C. 20548, pursuant to
Supreme Court Rule 29(2).

    

Raphael M. Scheetz

Certificate of Service

I, Raphael M. Scheetz, Attorney for the Petitioner, certify that on September 8,
2020, I served by electronic means only the Petition for Writ of Certiorari and the Motion to
Proceed in Forma Pauperis in the above entitled case to all counsel of record in the matter,
pursuant to Supreme Court Rule 29(3), at the following addresses:

Mr. Timothy Vavricek Solicitor General of the United States
Assistant United States Attorney Department of Justice

111 7th Avenue S.E., Box 1 Room 5614

Cedar Rapids, Iowa 52401 950 Pennsylvania Avenue N.W.

Washington D.C. 20530-0001

  

Raphael M. Scheetz

  

42
